<html>
<title> - FINDING COOPERATIVE SOLUTIONS TO ENVIRONMENTAL CONCERNS WITH THE CONOWINGO DAM TO IMPROVE THE HEALTH OF THE CHESAPEAKE BAY</title>
<body><pre>[Senate Hearing 113-761]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-761

                   FINDING COOPERATIVE SOLUTIONS TO ENVIRON-
                    MENTAL CONCERNS WITH THE CONOWINGO 
                    DAM TO IMPROVE THE HEALTH OF THE 
                    CHESAPEAKE BAY

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       MAY 5, 2014--CONOWINGO, MD

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                     U.S. GOVERNMENT PUBLISHING OFFICE
97-800 PDF                  WASHINGTON : 2015                     
                               
________________________________________________________________________________________     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a3b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a>  
                          
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
THOMAS R. CARPER, Delaware           JOHN BOOZMAN, Arkansas
SHELDON WHITEHOUSE, Rhode Island     JAMES M. INHOFE, Oklahoma
JEFF MERKLEY, Oregon                 JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         JEFF SESSIONS, Alabama
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                            officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 5, 2014
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana, 
  prepared statement.............................................    26

                                WITNESSES

Jordan, Colonel J. Richard III, Commander and District Engineer, 
  U.S. Army Corps of Engineers--Baltimore District...............     6
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Cardin...........................................    15
        Senator Vitter...........................................    23
LaRouche, Genevieve Pullis, Field Office Supervisor, U.S. Fish 
  and Wildlife Service--Chesapeake Bay Field Office..............    26
    Prepared statement...........................................    29
    Responses to additional questions from Senator Cardin........    35
    Response to an additional question from Senator Vitter.......    42
Boesch, Donald, Ph.D., President, University of Maryland Center 
  for Environmental Science......................................    52
    Prepared statement...........................................    55
    Responses to additional questions from Senator Cardin........    59
Will, Vicky, Vice President, Environment and Safety, Exelon 
  Corporation....................................................    63
    Prepared statement...........................................    65
    Responses to additional questions from Senator Cardin........    77
Gray, Hon. Richard, Mayor, City of Lancaster, Pennsylvania.......    81
    Prepared statement...........................................    83
Gill, Hon. Joe, Secretary, Maryland Department of Natural 
  Resources......................................................   124
    Prepared statement...........................................   126
    Responses to additional questions from Senator Cardin........   132

 
   FINDING COOPERATIVE SOLUTIONS TO ENVIRONMENTAL CONCERNS WITH THE 
       CONOWINGO DAM TO IMPROVE THE HEALTH OF THE CHESAPEAKE BAY

                              ----------                              


                          MONDAY, MAY 5, 2014

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                     Conowingo, MD.
    The subcommittee met, pursuant to notice, at 9:57 a.m., in 
the Conowingo Visitors Center and Recreation Office, Hon. 
Benjamin L. Cardin (chairman of the subcommittee) presiding.
    Present: Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. I'm going to do something which is unheard 
of in the U.S. Senate. We're going to start a few minutes 
early.
    [Laughter.]
    Senator Cardin. So just don't tell my colleagues that we 
did that, because I know our first panel is ready to go, and I 
very much appreciate everyone that's here.
    This is a particularly glorious day. So it's nice to be 
able to be up here on the Susquehanna on a beautiful day.
    I want to thank Senator Boxer and Senator Vitter, the chair 
and Republican leader on the Environment and Public Works 
Committee, for allowing us to have a field hearing. I thought 
it was important to have the hearing here right at the dam site 
on the Susquehanna in order to provide the best setting and the 
most convenient setting for a public hearing as it relates to 
two very important goals that we have in our country, and that 
is energy supply and environment, and the two are very much 
related to our discussion today.
    Senator Boozman, who is the lead Republican on the 
Subcommittee on Wildlife and Water, is recovering from a 
serious condition. I hope I'll see him this week in Washington. 
He's the lead Republican on the subcommittee that I have the 
opportunity of chairing.
    So with all of those preliminaries out of the way, welcome, 
everyone. And as I said, this hearing is scheduled because 
there's two very important goals that we have. This dam 
provides an incredible amount of carbon-free energy to our 
country, which is very important--1.6 billion kilowatt hours of 
zero-carbon energy annually. That's very important. It's been 
here since 1928, so it's been here for a long time.
    The energy needs are clear. My staff tells me this is the 
second largest production of hydroelectric power on the East 
Coast of the United States, second only to Niagara. So this is 
a significant facility as it relates to power. It supports a 
9,000-acre reservoir that I'm sure that we will be talking 
about today.
    The Susquehanna River is critically important to the 
Chesapeake Bay and to our environment. It is the largest source 
of fresh water going into the Chesapeake Bay, starting at 
Cooperstown, New York, which I've had the opportunity to 
personally visit. So it's an important environmental issue.
    The upstream pollution is not healthy for the Bay. We know 
that. The sources of the pollution is not the dam. The sources 
of the pollution is upstream, and we know about the sediment 
and the issues of the sediment. We also know that there are 
other pollutants, including the nutrient levels of the Bay. It 
can be devastating to the aquatic life, the degradation of our 
oysters, our crab, our rockfish, and hundreds of species are 
very much impacted by the sediment and nutrients that flow into 
the Susquehanna and into the Chesapeake Bay.
    The environmental problems are well known on the Bay. We've 
been talking about this for a long time. I started on the Bay 
program when I was in the State legislature, when Harry Hughes 
was Governor of Maryland. So it goes back a long time, our 
efforts to try to deal with the Bay.
    The reservoir that was created as a result of the dam 
provides a trapping source for a lot of those pollutants. 
They're held in the reservoir. That's a good thing. But now 
we're talking about reaching the capacity of what the reservoir 
can handle from the point of view of the sediment control.
    Therefore, we're going to talk about a term of dynamic 
equilibrium. The first time I heard that term was when I was 
reading the material for this hearing. So we'd like to know 
what that means and what the impact of dynamic equilibrium is 
on the Chesapeake Bay and what happens during scouring events, 
when we have an extreme condition.
    I was here a little bit early, so I drove across the dam 
just to take a look at it. We couldn't help but notice the 
incredible amount of debris that's being held by the dam today. 
What impact do scouring events have on this dynamic equilibrium 
and on the Bay itself? We'll have a chance to talk about that 
and other issues during this hearing today.
    Colonel Jordan, it's a pleasure to have you here. The Army 
Corps has completed a study, and we thank Exelon and the Nature 
Conservancy and the State of Maryland for helping facilitate 
that study. That study dealt with the sediment issue, a very 
important part of it, and we'll have a chance to review the 
impact of that study on our work today.
    We know that there is a responsibility of all the 
stakeholders. I want to emphasize that. It's not just one 
stakeholder, but all the stakeholders. Clearly, what happens 
upstream and how we handle our waste, how we handle farming 
operations, how we handle development upstream all affect the 
quality of the Bay and the effectiveness of what can be done 
here at this dam.
    Exelon clearly has a responsibility as the operator of the 
dam. We'll be able to talk about that. Vicky Will, we thank you 
very much for being here today. She will be on the second 
panel.
    We have government partners. I particularly appreciate 
Mayor Gray from Lancaster being here to talk about what you can 
do at the local level. Secretary Joe Gill from the State is 
here--we thank him--with the State of Maryland and the impact 
it has.
    This is not the only source of fresh water going into the 
Chesapeake Bay. How about the other sources and the watershed 
areas, their responsibility? And, of course, there are other 
dams on the Susquehanna in addition to here at Conowingo.
    All of our policies should be based upon best science, and 
that's going to be a theme that we'll talk about during today's 
hearing. Dr. Don Boesch, who is here, is a frequent witness on 
Chesapeake Bay issues and has been extremely helpful. We very 
much appreciate your presence here today.
    And Genevieve LaRouche is here from the Fish and Wildlife. 
There are other issues here that we are concerned about, 
including the fish habitat issue. I've seen the fish passage 
facility before, and it's very impressive. We'll have a chance 
again to take a look at it today. But are we doing the best we 
can for fish habitat? What is the status of that? We'll have a 
chance today to talk about that issue in addition to others--
what impact the sediment has on fish habitat.
    And the operation of the dam, which operates two peak 
periods daily to maximize the energy production--does that have 
an impact on the health of the fish habitat? That's an issue 
that we will want to pursue during today's hearing. And are 
there other steps that can be taken that are appropriate?
    We all know that this dam was certified by the FERC process 
in 1980. FERC certification expires later this year. We're now 
in the process of the 401 certification mandated by the Clean 
Water Act. How does that provide us an opportunity to directly 
deal with some of those issues? I hope that will come out at 
today's hearing.
    We also need to be mindful that there is the State 
watershed implementation plans and the TMDLs. How does all this 
fit into those programs that are also clearly aimed at dealing 
with the health of the Chesapeake Bay, generally?
    I hope as a result of today's hearing we'll have a better 
understanding of the circumstances as to how this hydroelectric 
dam impacts the issues that we're talking about both on energy 
and on the environment. What is our overall strategy for 
dealing with both energy production and environment? How does 
it affect the surrounding communities? And what are the 
stakeholders' responsibilities?
    The bottom line is we need to work together on this issue, 
and I'm completely convinced about that. How can all the 
stakeholders continue to work together to do what's best for 
our energy needs and our environment?
    One last point before I introduce formally our first panel. 
I really want to thank the staff--they're sitting behind me, 
the staff from the EPW Committee, both the majority and the 
Republican staff people--for the work that they did in making 
this hearing possible. It's a very busy time for the EPW 
Committee. We're in the midst of a conference on the Water 
Resources Development Act. We hope to complete that as early as 
this week. And yet we're here in Maryland for a field hearing, 
and I particularly thank them for the work and time that they 
put in to make this hearing possible.
    On a personal note, I thank Josh Klein on my staff who has 
made the effort to pull all of us together.
    One last apology. Obviously, we needed a larger room. I 
apologize for that. I don't mind people coming in here and 
sitting if you can find places. So if we can just give you a 
chance to get to get in here and find a place that's a little 
bit more convenient for you, that's fine. We have a little bit 
more room on the sides up here.
    I might also put out that the Environment and Public Works 
Committee is also busy working on a reauthorization of our 
surface transportation. So this is a very busy time for our 
committee, and this, obviously, is a very important subject.
    So on our first panel, we're very pleased to have Colonel 
Richard Jordan, who is the Commander and District Engineer, 
United States Army Corps of Engineers, Baltimore District, in a 
key position, and Ms. Genevieve Pullis LaRouche, the Field 
Office Supervisor, U.S. Fish and Wildlife Service--Chesapeake 
Bay Field Office.
    We'll start with Colonel Jordan.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    I want to thank our witnesses for their willingness and 
interest in testifying at today's hearing.
    The Susquehanna River and its tributaries is the single 
largest freshwater river in the Chesapeake Bay Watershed. Just 
10 miles downriver from where we are today, the Susquehanna 
opens up to become the Chesapeake Bay, the United States' 
largest estuary.
    Where we are today stands the Conowingo Dam--an 86-year-old 
marvel of engineering (for its time).
    The Conowingo Dam is a merchant power production facility 
that generates 1.6 billion kilowatt hours of zero-carbon energy 
annually in the State of Maryland, powered by the magnificent 
public resource that is the Susquehanna River. The Philadelphia 
Electric Company, now a subsidiary of Exelon Corporation, 
completed construction of the dam in 1928. PECO and Exelon have 
sold power and profited from the energy generated by the 
Susquehanna at this dam for nearly 90 years.
    The Conowingo Dam, and the series of dams just upriver from 
Conowingo on the Lower Susquehanna, effectively control the 
rate and volumes of water that flow down the river, which has 
an enormous effect on the river's ecosystem. Some of these 
effects have been positive, like reducing the flow of sediments 
and nutrients into the Chesapeake Bay. Others harm the river 
ecosystems, like restricting the replenishment of natural 
sediments to the river bed immediately downstream.
    The dam's operational procedures that simulate twice daily 
drought and flood events that are timed based on peak energy 
demand also affect the health of the river as well as restrict 
recreational opportunities immediately downriver.
    It is incumbent upon the operators of the dam, as well as 
State and Federal regulators, to ensure that the important 
public resource powering this dam is also cared for and 
protected while also meeting our region's energy needs.
    It is this fresh water that creates the brackish marine 
environment that supports Maryland blue crabs, Chesapeake Bay 
oysters, rockfish, shad and hundreds of other aquatic species.
    For many years the dam has provided ``incidental'' benefits 
to the Bay of trapping upstream sediments and nutrients that 
were flowing downstream. These contaminants travel as far away 
as Cooperstown, New York, and as close as right here in Harford 
County from Broad Creek.
    While the containment of excess nutrients and sediments is 
significant, the evidence that this benefit is ``incidental'' 
is evidenced by the fact that the reservoir is reaching maximum 
storage capacity because it has not been maintained as if it 
were a purposeful sediment and nutrient control measure. The 
accumulated sediments behind the dam are not regularly dredged 
the way a nutrient and sediment detention basin would be.
    Frankly, this isn't surprising. The dam is a hydropower 
plant, not a stormwater detention basin. But I raise this point 
because now that the dam is reaching its storage capacity, a 
better understanding of what a ``full reservoir'' means is 
necessary.
    Fortunately, Exelon, The Nature Conservancy, and the State 
of Maryland came together to provide matching and supplemental 
funds necessary to commission the Army Corps of Engineers to 
study the effect of the loss of additional capacity of sediment 
detention behind the dam.
    I am looking forward to Colonel Jordan's testimony on the 
preliminary findings of this study. The Watershed Assessment 
should help inform the scope of the problem and the feasibility 
and practicality of ``solving,'' as some have characterized 
what is necessary, the conundrum of Conowingo Dam.
    I think it is important to note, however, that the scope of 
this study and the models that were run to generate the data 
were limited to examining sediment. A more complete 
understanding of the extent of the impact this loss of storage 
will have on Bay water quality must also assess nutrient 
pollution.
    Maryland has begun the process of developing a section 401 
certification for the dam. 401 certification is a regulatory 
compliance authority delegated to the States by the Clean Water 
Act that must be completed for any facility requiring a Federal 
permit or license to operate. In the case of Conowingo, it 
would be FERC license which is scheduled for relicensing in 
2015.
    While the Corps' completion of the Lower Susquehanna 
Watershed Assessment will inform the 401 cert process, Maryland 
needs more information on scoured nitrogen and phosphorous 
behind the dam and what continues to come down the Susquehanna 
is having on Bay water quality.
    Maryland and other stakeholders, including Exelon, are 
interested in helping fund this supplemental study on 
nutrients. I greatly appreciate this good faith effort on the 
part of Exelon to help ensure that the 401 certification, and 
ultimately the FERC license, are informed by the best available 
science. These regulatory decisions need to be driven by the 
best science.
    Many strong opinions have been expressed on the impact the 
dam is having on Bay water quality.
    Some have said that there is no point in doing anything to 
address water quality issues on other tributaries of the Bay 
watershed until Conowingo Dam is ``fixed.''
    Some who hold those opinions also strongly oppose the TMDL 
and the State Watershed Implementation Plans.
    I've also heard Exelon's company line that it does not feel 
that it is responsible for the pollution that's accumulated 
behind the dam since Exelon didn't produce it.
    Frankly, I take issue and would challenge both of these 
perspectives. I strongly believe that all stakeholders in the 
watershed have responsibilities to meet in order to restore 
water quality to the Bay.
    I believe it is irresponsible for one set of stakeholders 
to point their fingers at Conowingo as an excuse not to make 
contributions to clean up their part of the watershed. While 
the Susquehanna may be the largest single source of freshwater 
into the Bay, the rest of the tributaries combined surpass the 
volumes of fresh water that flows down the Susquehanna.
    The fact is, the excess nutrient and sediments coming down 
the Susquehanna and are occasionally scoured from behind the 
dam by events like the storms we experienced in the region last 
week. But that same storm event caused the fresh water rushing 
down the Shenandoah, the Monacacy, the Potomac and other rivers 
of the Chesapeake watershed to run milky brown with sediment 
and nutrients, and no ``fix'' at Conowingo Dam would've changed 
the excess nutrient and sediment levels of these rivers.
    The point is, we all have a shared responsibility to work 
within the our portions of the watershed to improve water 
quality locally which in turn will improve water quality 
downstream in the Bay. This is about taking local 
responsibility for the problems in our communities and avoiding 
claims of innocence and finger pointing as if the solution or 
panacea to these problems rest in one place--we share this 
responsibility.
    I want to make it clear that I support the continued and 
lasting operation of the Conowingo Dam. I believe that there is 
a balance that must be struck between energy production and 
environmental stewardship that I want to discuss in this 
hearing.
    Exelon and all stakeholders in the Chesapeake Bay watershed 
have a responsibility to be good stewards of the waters of the 
Chesapeake Bay.
    The reason I invited Mayor Rick Gray to testify today is 
that he exemplifies a community that accepts its responsibility 
in the watershed, and I think there are important lessons that 
we should learn from his efforts and experience. And Lancaster 
City does not even reap the direct benefits of the Bay that 
many of Maryland's communities are so fortunate to have.
    The recovery of the Chesapeake Bay is a tremendous 
undertaking that we all must work together to accomplish. The 
States have developed Watershed Implementation Plans (WIPs) 
that show a basin-wide commitment to restoring the basin's 
water resources. The WIPs spread the burden across all sectors.
    The pollution reduction targets set in the WIPs help 
improve local water quality that in turn results in improved 
water quality downstream and in the Bay. Because there is no 
panacea to solving the Bay's water quality challenges.
    I look forward to hearing our witnesses' testimony and 
asking them questions on what responsibilities and actions 
should be taken not only to address the challenges with a 
``full'' dam but also where the dam fits in the larger basin-
wide effort to restore the Bay, and what responsibilities all 
stakeholders have to reduce the nutrient and sediment pollution 
to the Bay.

   STATEMENT OF COLONEL J. RICHARD JORDAN III, COMMANDER AND 
  DISTRICT ENGINEER, U.S. ARMY CORPS OF ENGINEERS--BALTIMORE 
                            DISTRICT

    Colonel Jordan. Chairman Cardin and members of the 
subcommittee, I'm Colonel J. Richard Jordan, III, Commander of 
the Baltimore District, U.S. Army Corps of Engineers. Thank you 
for the opportunity to testify today about our organization's 
role in addressing the issues of sediment transport along the 
Susquehanna River and specifically to discuss the Lower 
Susquehanna River Watershed Assessment.
    Throughout this entire process, we have worked with a 
variety of Federal, State, and local agencies that have been 
crucial in the assessment's development, as well as various 
agencies, nongovernmental organizations, and other stakeholders 
that have provided feedback and information throughout the 
assessment process. The completion of this assessment would not 
have been possible without this diverse and vast team.
    The Corps of Engineers is a unique organization with a 
diverse military and civil works mission. Included in our 
mission is our role in watershed planning, which is more than 
individual project planning. It is, instead, a more 
comprehensive strategic evaluation of an entire watershed. This 
process, starting with an assessment, makes for a more complete 
range of potential solutions.
    In 2011, the Corps partnered with the State of Maryland 
through its Departments of Environment and Natural Resources to 
conduct an assessment of the Lower Susquehanna watershed. This 
watershed assessment, which will be released for public view 
later this year, will characterize the very complex 
relationships between river flow, sediment, and ecological 
resources in the Lower Susquehanna River system, including the 
series of hydroelectric dams along the river that routinely 
trap sediment.
    The Conowingo has the largest storage capacity of the dams 
in the series and is closest to the Chesapeake Bay. The effects 
of sediment on the Chesapeake Bay have been researched, but 
past studies have not examined from a watershed perspective how 
dams impact sediment transport from the Lower Susquehanna River 
to the Chesapeake Bay. Previous studies indicate that the dams 
have historically acted as sediment and associated nutrient 
traps, thus reducing the amount of sediments and nutrients 
reaching the Bay.
    To conduct this watershed assessment, we used mathematical 
modeling and watershed data to analyze sediment management and 
strategies, as well as examine how the series of dams 
functioned under various scenarios. These models represent the 
best tools currently available for evaluating sediment and 
nutrient dynamics in the Lower Susquehanna River and Chesapeake 
Bay watershed and have been used extensively with good results. 
These models have been peer reviewed during previous studies, 
and their application in this assessment will be peer reviewed 
again.
    When this assessment started in 2011, the concern of the 
stakeholders was that as the reservoirs behind each dam filled, 
they would capture no sediments and associated nutrients. 
Historical records indicate that the trapping of sediments at 
the Conowingo is limited compared to decades ago. But trapping 
of more than half of the sediment coming down the river still 
occurs.
    At the current time, each reservoir has reached a state of 
dynamic equilibrium. This means that after large storm events 
when mass scour occurs, sediment storage capacity will 
temporarily increase. Sediment is then deposited again, 
reducing the overall storage capacity until another mass scour 
event occurs. As a result, we expect to continue to see periods 
of trapping followed by scour events. But, overall, the storage 
capacity of each reservoir is cyclical, and the inflow of 
sediment will, in the long term, equal the outflow.
    The assessment also considered the increased health impacts 
to the Chesapeake Bay ecosystem. The impacts would be primarily 
due to attached nutrients, not necessarily the sediment itself. 
After a mass scour event, estimates showed that the sediment 
settles quickly and is not the major threat to aquatic life.
    Sources to include the watershed and scour from other 
reservoirs upstream of the Conowingo Dam were also considered. 
During Tropical Storm Lee in 2011, the Susquehanna River 
watershed above the Conowingo Dam provided approximately 80 
percent of the sediment load delivered to the Bay, only 20 
percent scoured from the trapped sediment. These sources 
deliver more sediment and nutrients and, therefore, more 
impacts on the Bay ecosystem than do the scoured sediment and 
associated nutrients from the reservoir behind the Conowingo 
Dam.
    As such, analysis done by the Environmental Protection 
Agency indicates that the implementation of watershed 
implementation plans, or WIPs, is estimated to have a far 
larger influence on the health of the Bay. WIPs manage 
watershed loads and detail how and when Bay States will meet 
nutrient load allocations as part of the Chesapeake Bay total 
maximum daily loads, or TMDLs.
    In fact, we've already seen this positive impact. And over 
the past 30 years, due to regulatory and voluntary nutrient and 
sediment reduction strategies, nutrient and sediment loads to 
the Lower Susquehanna River are already significantly lower 
than they were in the mid-1980s.
    The assessment considers a variety of sediment management 
strategies, including dredging behind the Conowingo Dam. Please 
note that the assessment does not assign responsibility for 
implementing those strategies to any party and does not 
recommend a future Corps project. The implementation of any of 
these strategies by the Corps would require a specific 
feasibility study.
    Maintenance dredging with upland sediment disposal would be 
required annually or on some regular cycle to achieve any 
sustained improvement to the health of the Bay and would likely 
cost $50 million to more than $250 million for each maintenance 
cycle with costs continuing to increase as placement sites 
become less convenient. Further, the positive impacts of 
dredging may produce are significantly minimized due to the 
fact that the majority of the sediment during a scour event is 
coming from the watershed.
    Where do we go from here? We're going to continue to work 
with the report. The report will undergo a series of internal 
and external reviews, including a public comment period. We 
remain committed to working in partnership to address the 
watershed planning needs of the Susquehanna River Basin, and we 
expect the Lower Susquehanna River Watershed Assessment to 
provide useful information to help stakeholders and 
decisionmakers better understand the very complex relationships 
between the river flow and sediment and ecological resources in 
the Lower Susquehanna River.
    Beyond this assessment, monitoring, research, and further 
modeling by involved parties can help us understand nutrient 
processes and their impacts on the Chesapeake Bay and its 
ecological resources.
    Mr. Chairman, thank you for the opportunity to testify here 
today. This concludes my testimony. I'd be happy to answer any 
questions you or other members of the committee may have.
    [The prepared statement of Colonel Jordan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Cardin. Thank you very much, Colonel Jordan. I 
should have mentioned in the beginning that, without objection, 
all the written testimony of the witnesses will be made a part 
of the record. So you may proceed as you wish.
    I also would like to place in the record the statement of 
Senator David Vitter, the Republican leader on the Environment 
and Public Works Committee, in regards to this hearing.
    [The prepared statement of Senator Vitter follows:]

                    Statement of Hon. David Vitter, 
                U.S. Senator from the State of Louisiana

    Mr. Chairman, I would like to thank you for calling today's 
hearing. I would also like to thank our witnesses for 
testifying before the Subcommittee on Water and Wildlife this 
morning.
    The policy questions and potential solutions related to 
Conowingo Dam, environmental concerns, and energy production 
are important and deserve the subcommittee's attention. As we 
continue to examine these issues, it is critical that we 
understand the various legal, environmental, and economic 
challenges and opportunities associated with Conowingo Dam and 
its relicensing.
    The Conowingo Dam is just 10 miles upstream of the 
Chesapeake Bay, a body of water that has significant 
historical, ecological, and environmental value for people 
throughout the United States, especially those who reside in 
the mid-Atlantic States. I applaud the cooperative and 
voluntary efforts undertaken by many officials and stakeholders 
in recent years to protect the Chesapeake Bay.
    At the same time, we must recognize that environmental 
policies and programs related to the Chesapeake Bay and 
elsewhere must be based on sound science and law and 
accomplished in a manner which does not jeopardize the 
livelihoods of hard working Americans. For example, the 
Chesapeake Bay Total Maximum Daily Load (TMDL) represents a 
dramatic expansion of the Environmental Protection Agency's 
authority under the Clean Water Act and threatens State and 
local land use authority throughout the country, as evidenced 
by the numerous States that have expressed opposition to the 
precedent the TMDL could set. As we consider concerns and 
possible solutions related to the Conowingo Dam, the issues 
related to the Bay TMDL offer a lesson to policymakers and 
should lend caution to any top-down regulatory approach.
    I appreciate the public and private officials and academics 
that are here today to provide us with their expertise on these 
issues. I look forward to the witnesses' testimony and again 
thank Senator Cardin for holding this important hearing.

    Senator Cardin. Ms. LaRouche.

     STATEMENT OF GENEVIEVE PULLIS LaROUCHE, FIELD OFFICE 
  SUPERVISOR, U.S. FISH AND WILDLIFE SERVICE--CHESAPEAKE BAY 
                          FIELD OFFICE

    Ms. LaRouche. Good morning, Chairman Cardin. I'm Genevieve 
LaRouche, Chesapeake Bay Field Office Supervisor with the U.S. 
Fish and Wildlife Service, and an Annapolis resident. I 
appreciate the opportunity to testify today on the Conowingo 
Dam.
    Mr. Chairman, I want to acknowledge your leadership on 
conservation of the Chesapeake Bay over the years. You were 
Speaker of the Maryland House of Delegates when the first Bay 
agreement was signed 30 years ago. You have been an ardent 
supporter of conservation of the Chesapeake Bay and a 
foundational leader for Maryland's legislative agenda and 
support of the Bay. Thank you for your continued support.
    I also want to thank some of our other partner agencies, 
including the National Park Service, the National Marine 
Fisheries Service, the Army Corps of Engineers, and the 
Maryland Department of Natural Resources.
    My written testimony provides the Service's views on the 
importance of the dam and its impact on migratory fish, as well 
as the impact of water flow on wildlife resources. The Service 
recognizes a balance is needed between hydropower, fish 
passage, and improving the health of the Susquehanna River 
system. We have a unique opportunity to work together to strike 
this balance and restore this mighty river. My oral remarks 
will provide some quick highlights, and I ask that my written 
statement be submitted for the record.
    It's important to remind ourselves that the Susquehanna 
River is one of America's largest rivers, beginning in central 
New York and flowing over 400 miles through central 
Pennsylvania to Maryland. The largest tributary to the 
Chesapeake Bay, the Susquehanna River provides over 60 percent 
of the fresh water to the Chesapeake Bay.
    The Susquehanna River was once home to large numbers of 
migratory fish, including American shad, river herring, and 
American eel. These fish played a vital role in the Chesapeake 
region's history. During the Revolutionary War, American shad 
were described as a savior fish that saved George Washington's 
troops from starvation after the harsh winter of 1778. Today, 
as yesterday, shad are essential to the region's economy, 
supporting one of the most valuable fisheries in the region and 
providing recreation and tourism opportunities that support 
local communities throughout the region.
    Ecologically, the American eel plays a crucial role as a 
host fish for the freshwater eastern elliptio mussel. This 
mussel filters gallons of water daily and is a key element to 
improving water quality in this heavily populated watershed. 
Populations of American shad, river herring, and American eel 
have been reduced or essentially eliminated in the Susquehanna 
River and other Chesapeake Bay tributaries by dams.
    On the Susquehanna River, the American shad population 
upstream of the Conowingo Dam is at historically low levels, 
and population estimates downstream below the dam have shown a 
decrease since 2001. Despite this decrease, population 
estimates suggest American shad are present downstream of the 
dam, and more fish would be passing upstream if more suitable 
conditions were available. While the American shad population 
below the Conowingo Dam is currently estimated at about 100,000 
fish, only 12,733 American shad passed the Conowingo Dam in 
2013.
    After taking into account the dams upstream of Conowingo 
Dam, only 2 percent of the American shad attempting to migrate 
up the Susquehanna River actually made it to their spawning 
grounds. That translates into only 200 fish passing all the 
Lower Susquehanna River dams in 2013. The fish passage goal for 
adult American shad passing into that spawning habitat is 2 
million fish.
    The day-to-day operations of the Conowingo Dam affect 
wildlife and habitat downstream. Rapid cycling of rising water 
during power generation, followed by falling water levels after 
generation, creates unnatural river conditions. This flow 
regime creates drought and flood regimes of record proportion 
and degrades the aquatic habitat downstream for many species, 
including migratory fish, mussels, and map turtles.
    Fish passage technology has improved in recent years. The 
fish passage facilities at Conowingo Dam can be upgraded to 
provide the efficient fish passage we need. By building and 
maintaining fully functioning fish lifts on both sides of the 
river, our data indicate that we can pass the numbers of fish 
needed to restore migratory fish populations to the Susquehanna 
River.
    Conowingo is currently undergoing Federal relicensing, 
which means we have a rare opportunity that happens only once 
every 30 to 50 years to modernize the fish passage at Conowingo 
and advance restoration of American shad and river herring at 
the Susquehanna River. Through this relicensing, the Service 
works with license applicants, the Federal Energy Regulatory 
Commission, other agencies, and the interested public to ensure 
that hydropower projects operate in an environmentally sound 
manner and the Nation's natural resources are protected.
    We recognize and understand there is a balance to strike 
between energy production and fish passage, and we engage in 
ongoing conversations with the hydro operator, Exelon, to find 
that balance. This is a once in a generation opportunity to 
improve fish populations and habitat in the Susquehanna River, 
its tributaries, and the Chesapeake Bay.
    By applying the best available science and upgraded 
engineering techniques at Conowingo Dam, we will not only 
improve fish populations but help to ensure their 
sustainability for future generations. We believe that all of 
these goals are not only possible but also realistic and within 
reach.
    Thank you for the opportunity to testify today on the 
importance of the dam and its impact on migratory fish. I'm 
happy to answer any questions and look forward to working with 
the subcommittee.
    [The prepared statement of Ms. LaRouche follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Well, let me thank both of you for your 
testimony, and, particularly, let me also thank you for what 
you do every day to help in regards to these issues.
    Colonel Jordan, I'm going to have some questions for the 
record because they're kind of technical as to the manner in 
which the study was done. As I understand it, it was limited to 
sediment issues. It didn't deal with all of the potential 
pollutants that are dealt with in the Bay.
    I just want to make sure that we understand the methodology 
that was used and, particularly, how it affects unusual 
conditions. You already talked about scour events and this 
dynamic equilibrium, which I want to get a little bit more 
into. But it seems to me that there are seasonal issues here, 
and they're becoming more extreme.
    Therefore, I want to know how confident we are on your 
findings as we go to more extreme weather conditions as a 
reality of where we are as a community. If you want to comment 
on that now, fine, but I will be asking you some questions for 
the record.
    Colonel Jordan. Mr. Chairman, I'd like to say that we're 
very confident because we have used models that have been 
developed over the last 20 to 30 years, specifically, one of 
them with regards to the Chesapeake Bay. We can talk about the 
future projections in your further questions, sir.
    Senator Cardin. Thank you. So let me talk about dynamic 
equilibrium. I think I understand it to mean that the typical 
flow of sediment coming from upstream to downstream will be as 
if the dam was not there on a typical amount of flow since it 
has reached its maximum capacity of storage in the reservoir. 
During a scour event, there will be a disruption of that, but 
within a relatively short period of time, we get back to that 
equilibrium. Am I describing that right or not?
    Colonel Jordan. Mr. Chairman, I would offer that 100 years 
ago, the system was in equilibrium. It was without any dams, 
and there was a certain amount of sediment flowing down the 
river, on average, every year. In the intervening 100 years, 
we've placed, in this case, four dams across the river, and 
they have trapped more sediment than would normally have gone 
down the river in the 1800s.
    Around the year 2000, give or take a little bit, the dams 
got full. So about every 4 or 5 years, when a major storm event 
happens, that scour would occur and would reduce the amount of 
sediment that was trapped behind the dam. So, as you just 
stated, it gave another 4 or 5 years of somewhat--of trapping 
capacity. And that's the dynamic nature of the equilibrium.
    So we're back at steady state where we were 100 years ago. 
But you still have these big scour events that are happening 
down the Chesapeake Bay, which did not happen necessarily 100 
years ago, because there weren't all these trapped sediments 
behind the dams.
    Senator Cardin. So how would you characterize what happened 
this past weekend on the amount of rainfall that we received? 
Would that be considered one of these 4-year scour events, or 
is that just the new reality that we have to confront?
    Colonel Jordan. In Baltimore, it felt like the event from 
2011 or 1996, because we had six inches. But if you looked 
upstream throughout the Susquehanna River Basin, there was 
actually minimal impact. The average daily flow for the 
Susquehanna River right here is 40,000 cubic feet per second. 
We think that a major scour event occurs at about 10 times that 
or 400,000 cubic feet per second. We did not reach anything 
like that this past week.
    Senator Cardin. So when we see all that debris that's being 
trapped, that's nothing of major concern?
    Colonel Jordan. I am not concerned about that at all. I see 
that routinely down in the Baltimore harbor and in my dams that 
are up and down this river system.
    Senator Cardin. It just doesn't look very nice.
    Colonel Jordan. It doesn't. If I could offer, the main 
concern is the sediment, which is actually not right in front 
of the dam here. It's about a mile upstream.
    Senator Cardin. So the reservoir today, as we speak, is at 
capacity, and we have this dynamic equilibrium occurring on a 
daily basis right now?
    Colonel Jordan. That is correct, sir.
    Senator Cardin. Thank you. I appreciate that.
    Ms. LaRouche, let me talk a little bit about the impact of 
a scour event. It's not just the sediment being released from 
the reservoir, so you've got more sediment than would normally 
flow into downstream. You get a surge of pollutants, more than 
would happen even during a scour event. But you also get an 
incredible amount of fresh water that's coming down, which also 
has an impact on the environment.
    Can you just tell us, in your view, how the fact that the 
dam is here so you get the unusual amount of sediment coming 
from a scour event plus the increased amount of fresh water--
how does that impact the habitat?
    Ms. LaRouche. Well, our primary concern is with the high 
flow events that come with the dam's operation.
    Senator Cardin. The normal operations.
    Ms. LaRouche. The normal operations, yes, and that has a 
big negative impact on the habitat immediately downstream. It 
scours it. It's not good for the underwater grasses, which we 
need for all kinds of underwater organisms, such as oysters and 
rockfish, and it's also not good for organisms such as map 
turtles.
    It also disturbs the fishes' migratory cues that they need 
to migrate upstream and displaces them and impedes migration. 
So we're hoping that we can work with Exelon to create a safe 
zone of passage, so to speak, for fish to migrate safely 
upstream and downstream.
    Senator Cardin. I want to get to that in one moment. But 
the dam has been here for almost 90 years. So the fish don't 
remember when there wasn't any dam here. So tell me--just 
explain to me how the--if we're dealing with such a 
longstanding flow of how the water has operated, including the 
daily surges, the fish never adapt to that? Is this not the new 
norm for the shad?
    Ms. LaRouche. We have evidence that they're hanging around, 
kind of looking to migrate upstream, and time is an issue. We 
need to get them--if they're going to breed successfully, we 
need to get them to their spawning habitat as quickly as 
possible. And although the dams have been there for 90 years, 
the fish have been migrating upstream for about 10,000 years, 
and studies show that they do want to go.
    If we can direct them--and there's all kinds of great new 
technology that directs them to fish passage ladders, et 
cetera, that can safely move them upstream. But they do get 
confused when the water stops and they kind of have to move 
back, and then move around tomorrow, the next day, that kind of 
thing.
    Senator Cardin. So they haven't adapted even though it's 
been a long time?
    Ms. LaRouche. No, not American shad and not river herring 
and not eels.
    Senator Cardin. And they're the three species that you're 
most concerned about as far as passage?
    Ms. LaRouche. Yes. They're the ones that are not doing 
particularly well with the dams, and they're also the most 
important economically and ecologically.
    Senator Cardin. So we have these fish lifts that are there.
    Ms. LaRouche. Yes.
    Senator Cardin. You seem to say that that can work. That's 
working well.
    Ms. LaRouche. Yes. Well, it can work. They very much need 
to be upgraded and improved.
    Senator Cardin. What do you mean by that?
    Ms. LaRouche. Well, right now, they're at capacity. There's 
a lot of fish in the river called gizzard shad which like the 
Conowingo pond. They like to breed in there, so we'll be 
getting higher and higher populations of them. They tend to 
fill up the fish passage facilities. So we need to make it so 
we can get more fish in the elevator, so we can get all the 
American shad that want to pass above stream so we can meet our 
fish passage goals.
    Senator Cardin. So we have greater capacity than--greater 
need than capacity? Is that what you're saying?
    Ms. LaRouche. We need greater capacity. We need more room 
in the fish passage lifts to lift them up. You'll see when we 
go up there that it can get pretty crowded, and we don't have 
enough volume. We can't get the amount of fish we need in there 
to get the fish that we're trying to get.
    Senator Cardin. I've been there before. I've seen the flow. 
It's an incredible sight. I'm looking forward to again seeing 
it today. I was always amazed at the number that are there. So 
you're suggesting that it's too crowded and some don't make it?
    Ms. LaRouche. Yes. There's a lot of--when I've been up 
there, I've seen like 90 percent gizzard shad, they're called, 
and they're native fish and they're fine. But they're not, you 
know, something that's very desirable for fishing or for the 
economy, and they're doing fine. But the American shad, which 
need to reach their spawning grounds upstream, are not making 
it.
    Senator Cardin. And you think that's a capacity issue?
    Ms. LaRouche. Yes.
    Senator Cardin. It's not so much that it's not----
    Ms. LaRouche. An efficiency issue, capacity and efficiency.
    Senator Cardin. An efficiency issue. Is that also true with 
the eel?
    Ms. LaRouche. We have a different tactic with the eel now 
where we trap and transport them. We trap them and then 
transport them up above all the dams.
    Senator Cardin. Is that adequate today?
    Ms. LaRouche. We think it'll do the trick for now. In an 
ideal world, we'd have natural passage for them over the dams. 
But we're not thinking about that in this relicensing right 
now.
    Senator Cardin. Because they don't particularly like the 
fish lifts?
    Ms. LaRouche. They're not--they need their own eel way to 
go up. We're hoping by 2030 that we'll be building passage for 
eels.
    Senator Cardin. And what--can you just--can you get that up 
by yourself?
    Mr. Sutherland. Hi. Dave Sutherland, Fish and Wildlife 
Service.
    Senator Cardin. Would that be a similar type of a lift, or 
would that be--how would you get past----
    Mr. Sutherland. Actually, I'm not the eel expert. I'm right 
next to the eel expert, though.
    Sheila, would you like to----
    Ms. Eyler. Hi. I'm Sheila Eyler. The eels that come 
upstream are small eels, usually about six inches long, and 
they require a whole different kind of facility. The lifts that 
you see are for much bigger fish. They actually require a 
different method of passage. So it's like a ramp they have to 
climb up on--a different structure.
    Senator Cardin. Like the traditional type of a----
    Ms. LaRouche. They go up a ramp.
    Senator Cardin. More like an elevator--no, more like an 
escalator than an elevator.
    Ms. LaRouche. Right.
    Senator Cardin. OK. I got you.
    Colonel Jordan, some have suggested that the most effective 
way to solve this problem of what happens during a scour event 
is to just dredge and give greater capacity to trap more even 
in a scour event. Your thoughts on that?
    Colonel Jordan. Effectiveness can be measured in a variety 
of ways. If we're just focused on the amount of sediment 
trapped behind the dam, we've looked at multiple ways of 
limiting the impacts of that sediment. But I'd remind anybody 
listening that 80 percent of what's going down and reaching the 
Bay is coming from upstream. So focusing on the 20 percent 
that's being scoured from behind the dam during a major storm 
event will get you some benefit, but not nearly as much as 
dealing with the first 80 percent.
    The benefits of dredging on the overall impact of the 
health of the Chesapeake Bay are rather limited. The amount of 
effort that we'd need to put into removing some of the 
materials behind the dam will get you very little bang for your 
buck downstream.
    Senator Cardin. I understand what you're saying as far as 
the amount of pollution that goes in upstream. I didn't quite 
understand what you meant by dredging upstream.
    Colonel Jordan. Dredging upstream of the dam itself--so we 
have 80 years of trapped sediment. If I might, there's about 80 
football stadiums filled worth of sediment trapped up there. To 
dredge, even back to the 1996 levels, about 15 percent of 
what's been trapped up there, we estimate would cost somewhere 
between a half and $3 billion, and that's not just a one-time 
deal, because you need to continually maintain that level of 
dredging for the years to come at $50 million to $250 million a 
year.
    So when you look at the terms of the cost of removing that 
material that's upstream of the dam, I can do it much, much 
cheaper as far as my Federal navigation mission downstream in 
the Federal channels that I'm required to maintain.
    Senator Cardin. OK. Now I think I understand what you're 
saying. So you've estimated an initial cost of somewhere 
between a half a billion to $3 billion to get the capacity back 
to where it was in the mid-1990s, and that would require 
maintenance dredging in order to do that. The effect would be 
to trap the sediment even during scour events upstream rather 
than letting it come downstream. But the cost-benefit issues is 
a matter that makes that difficult to justify.
    Colonel Jordan. That's a fair statement. You would get some 
benefit in terms of creating more capacity behind the dam to 
trap sediments if you dredged it out. You're still going to get 
some of the scour happening because you still have another--if 
you dredge it back to 1996 levels, you've still got stuff 
that's below there--85 percent of the original material that 
still could be scoured would be less scoured.
    Senator Cardin. So the advantage is you trap the sediments 
from ever getting downstream if you have capacity upstream, and 
you minimize the impact of a scour--lessen the impact of a 
scour event.
    Colonel Jordan. You will trap some of the sediments. 
Currently, today, we're trapping somewhere between 55 percent 
and 60 percent of the sediments on a given day, a day like 
today.
    Senator Cardin. I thought we had reached this dynamic 
equilibrium. I thought that meant that it was basically equal 
to--as if we didn't have a dam there.
    Colonel Jordan. And we're in the period now--the last major 
storm event was 2011.
    Senator Cardin. Oh, so you're still rebuilding----
    Colonel Jordan. So you're rebuilding a little bit, and 
then, presumably, in 2016, the next storm will come, 
thereabouts.
    Senator Cardin. But if the storm doesn't come in 2016, you 
will have reached that point where, on a daily basis, the 
sediment flow downstream would be equivalent--if the dam were 
not there.
    Colonel Jordan. Almost, yes. I can't say with 100 percent 
everything will flow over. Some will probably drop out.
    Senator Cardin. Sure.
    Colonel Jordan. And my smart folks are saying that there 
will always be some sediment that spills over the dam, 
regardless of how empty the dam is.
    Senator Cardin. Oh, that I understood. What I'm trying to 
judge--I understand the cost-benefit clearly has to be 
discovered. I'm trying to get the benefit if we were to 
increase the capacity at the reservoir on a normal basis, so 
you don't reach capacity. You don't reach that dynamic. What 
happens there is that in the normal flow, you reduce 
significantly the amount of sediment that would go downstream, 
because it would be trapped in the reservoir on a more 
permanent basis. You're not just refilling. You have basically 
unlimited capacity if you continue to dredge. But you will 
still get some sediment, but not as much going downstream.
    Colonel Jordan. That's correct.
    Senator Cardin. And what you're doing now is that you're 
dredging downstream, as you said, because you've got to keep 
channels open.
    Colonel Jordan. Yes, sir.
    Senator Cardin. So you're doing it as it relates to 
navigation as well as doing it in a way that's friendly toward 
the environment downstream.
    Colonel Jordan. That's a fair statement.
    Senator Cardin. And that's less costly than dredging the 
reservoir capacity.
    Colonel Jordan. Extremely less costly. If you're interested 
in figures, I spend about $10 per cubic yard currently to 
maintain the Federal channels. If you were to do the same up 
here, upstream of the Conowingo Dam, the cost is somewhere 
between $20 and $90 a cubic yard, depending on where you put it 
once you've taken it out.
    Senator Cardin. And since I've looked at your budgets 
recently, I know that you're not just sitting there with bank 
accounts ready to spend. It's been a struggle to get you the 
dollars that you need.
    Colonel Jordan. Well, we have adequate funds to maintain 
the Federal channels if we stretch our dollars as far as we 
can. But we don't have funds to--nor the mission to deal with 
sediments that are trapped behind the Conowingo or any other 
dam.
    Senator Cardin. So let me just ask you a question about 
pollutants other than sediment that the study, as I understand, 
didn't really focus on. Can you just comment at all about the 
risk factors we have on nutrient levels and toxics and others?
    Colonel Jordan. The study is focusing mainly on sediments, 
but it does touch on nutrients, specifically the nutrients that 
are in and around the sediments that are collected. We estimate 
that--and we modeled the nutrients, the phosphorus and the 
nitrogen, that are churned up with this scour and how it 
impacts the Bay. However, the majority of those nutrient loads 
that are impacting the Bay are coming from upstream.
    So we looked at the--I believe it was the 1996 event, and 
we have the number of tons of nitrogen and phosphorus that were 
churned up from behind the dam and scoured and put down into 
the Bay. And we looked at the impacts on the environment, 
specifically the sediments that mainly went to the deeper parts 
of the Bay and settled out relatively quickly. The nutrients 
remained much longer and impacted the algal growth which tended 
to restrict the amount of dissolved oxygen in the water which 
impacted plants and fish habitat.
    Senator Cardin. So let me just ask you, again, about the 
methodology that you used here. It seems to me when a scour 
event occurs, the season that it occurs has a direct impact. I 
think--1996 occurred in the wintertime. If it had occurred in 
the summer or spring, it would have been a different impact. 
How do you account for the seasonal variations of these events 
in your study?
    Colonel Jordan. You're exactly right. If an event happens 
in the winter months when the algae is not growing down in the 
Chesapeake Bay, there is much less of an impact as far as the 
nutrients on the health of the Bay. Our models, as we ran 
them--we made them run over a 3-year timeframe, so three 
seasons of growth and activities in the Chesapeake Bay. And we 
looked at events happening in the winter months as well as the 
summer months, and we looked at the impacts of how that would 
happen over a 3-year period inside the Bay.
    Senator Cardin. So if these 3 years were not typical, the 
results would be different.
    Colonel Jordan. And we varied the--we placed approximately 
14 different scenarios into this set of computer models.
    Senator Cardin. I want to talk about worst case scenario. 
It occurs during the worst possible season, and it occurs more 
severely. What does that do to your theory of dynamic 
equilibrium?
    Colonel Jordan. The time of year that the scour happens, 
the event happens, and the amount of the scour does impact how 
much is taken from behind the dam. The difference is what 
happens down in the Chesapeake Bay. So as we looked at the 
events--could you rephrase the question?
    Senator Cardin. Well, my concern is if you're going to have 
more nutrient as the result of a scour event that occurs in the 
spring rather than in another time of the year, your model is 
using average rather than using extreme, as I understand it, 
over the last 3 years. What risk factors do we have if we don't 
have a better way of dealing with nutrient release? And I know 
your study didn't deal with nutrient release.
    Colonel Jordan. Well, for the part of the model that looked 
at the Chesapeake Bay itself, we actually used the same model 
the EPA used in 1991 and 2000. So there was roughly 9 years of 
data, 9 years of equations that were in there. So during that 
timeframe, it captured the 1996 event, which happened in the 
January timeframe.
    Senator Cardin. Right.
    Colonel Jordan. So I don't think it's fair to say that we 
looked at the average conditions. We consider all the 
conditions within that 9-year period.
    Senator Cardin. There's no such thing as average, which is 
also true.
    Colonel Jordan. Yes, sir.
    Senator Cardin. Now, the reason I'm asking these questions 
is that in regards to the Chesapeake Bay program, it depends 
upon confidence that all stakeholders are being treated fairly, 
and that what we're asking someone to do on the Eastern Shore 
of Maryland is consistent with what's happening on the 
Susquehanna. It's important that we have the scientific 
information to reflect that we're making these best policies on 
a fair sharing of the burden, on a fair cost-benefit analysis.
    So, obviously, when you see as much risk factors that are 
in the Susquehanna being trapped and could be released, it 
presents concern that--are the stakeholders on the Susquehanna 
doing everything they can to protect or to preserve the 
Chesapeake Bay. That's the bottom line question, and your study 
helps. No question it helps. It presents some findings that 
were not expected, and we know that there's a lot of risk 
factors that are on the Susquehanna, and we know that there are 
extreme weather events. We just want to know that we're as well 
prepared as we can be, based upon a reasonable cost-benefit and 
science, and I think your testimony has helped us try to put 
those pieces together. So I thank you.
    I want to ask one last question to the both of you, and 
that is the certification process under FERC. You mentioned 
that in your comments as an opportunity. Can you just, both of 
you, review as to how you look at the certification process as 
an opportunity to update and make more efficient and effective 
our strategies on the Chesapeake Bay?
    Ms. LaRouche. Well, as you know, at this time of year, many 
communities are enjoying, you know, shad planking and other 
seasonal rights of passage. So we see this as an opportunity to 
restore American shad and river herring and American eel to 
this great river and to the communities upstream and downstream 
of the river. We have the technology in hand, both on the new 
engineering techniques, which are very impressive, that we can 
make that passage much more efficient and much more cost 
effective than we have in the past.
    Other opportunities also exist besides improving fish 
passage. We know more about water flow, and if we can alter the 
regimes a little bit of how the dam operates, we can help 
improve habitat downstream for many wildlife species.
    There's also a great opportunity in this relicensing that 
the National Park Service has been very engaged in. There's a 
lot of--Exelon owns a lot of conservation land, and we're in 
discussions about them providing access and trails, such as the 
Captain John Smith Trail, which will allow people to see as 
they're hiking on the trail how the land looked 400 years ago 
when Captain John Smith was here.
    So there's a lot of great conservation opportunities. I 
think by working hand in hand with Exelon and all the other 
partners that are here in this room, we can find a good balance 
here.
    Senator Cardin. Thank you.
    Colonel.
    Colonel Jordan. Senator, what I would offer is that I'm not 
sure that the Corps of Engineers would look at this as an 
opportunity. I think what we enjoy is that the focus is on the 
health of the Chesapeake Bay, which has been stated by the 
President in an executive order, and a lot of great efforts 
that are going on throughout the Bay States on how this 
watershed system is operating.
    So whereas in earlier years we might not have had any 
interest in doing a study similar to the one we just did, there 
was enough interest and enough funding to help us better 
understand the system which should then lead to future actions 
taken by all stakeholders and partnership members, one of which 
is the Corps of Engineers, potentially.
    Senator Cardin. Well, let me thank both of you for your 
testimony. It very much filled in a lot of the answers to the 
questions that I had. As I indicated earlier, there may be some 
questions, particularly, Colonel Jordan, to you in regards to 
the methodology used so that we can have a full record for our 
committee.
    Thank you all very much.
    We'll now move to our second panel. I welcome Dr. Donald 
Boesch, the President of the University of Maryland Center for 
Environmental Studies; Ms. Vicky Will, Vice President, 
Environment and Safety, Exelon Corporation, our hostess for 
today. And we particularly want to thank Exelon for their 
cooperation in making this hearing possible. They worked with 
our committee very closely so that we could have the hearing 
during this time of the year when the fish lifts are working 
most effectively.
    We also have The Honorable Joe Gill, Secretary, Maryland 
Department of Natural Resources, a person who has been very 
much engaged in the Chesapeake Bay program. We appreciate him 
being here. And we have The Honorable Richard Gray, the Mayor 
of the city of Lancaster.
    Mr. Mayor, it's a pleasure to have you here.
    I will just note as a matter of historic accuracy that when 
Maryland started the Chesapeake Bay program back under Governor 
Hughes, the State that was the most cooperative of any State 
since starting the Chesapeake Bay program was Pennsylvania. I 
will always remember the legislators from Pennsylvania, because 
they don't have the same direct site of the Chesapeake Bay that 
we have in Maryland, and yet their understanding of the 
importance of what happens in Pennsylvania on the Chesapeake 
Bay was very encouraging and has been one of the real 
cornerstones of the success of the Chesapeake Bay program.
    So it's wonderful having all four of you here. The process 
that we will use, as I've indicated earlier, will be that you 
may proceed as you wish. Your full statements will be made part 
of the record, and then we'll get into a dialog. We'll start 
with Dr. Boesch.

  STATEMENT OF DONALD BOESCH, Ph.D., PRESIDENT, UNIVERSITY OF 
           MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE

    Mr. Boesch. Senator Cardin, thank you very much. I 
appreciate the opportunity to present perspectives on the 
solutions to the risk posed by infilling of the Susquehanna 
Reservoir. I am Donald Boesch. I'm a professor in and president 
of the University of Maryland Center for Environmental Science.
    Just as a bottom line conclusion, looking at the watershed 
assessment as well as other published information based on the 
available evidence and analysis, I would conclude that the 
infilling of the Conowingo Reservoir has created an additional 
burden of nutrients and sediment pollution to the Chesapeake 
Bay that requires mitigation as we go forward. However, this 
burden does not render ineffective or significantly compromise 
the watershed implementation plans that the State jurisdictions 
have developed, that, if fully implemented, would achieve the 
Chesapeake Bay Program's restoration goals.
    Now, Colonel Jordan did an excellent job in his testimony 
and his answers to your question explaining dynamic equilibrium 
and the whole course of events that led to the present 
situation wherein this dam periodically discharges large 
amounts of sediments into the Bay. So I won't go further into 
that. There's more perspectives in my testimony.
    But I'd just like to put it into context in terms of the 
issues about what this means downstream in the Bay. I'll use 
the opportunity of a captive classroom here and give you a 
little understanding of the things that we know and the things 
that we have uncertainties about that we really probably should 
better know to understand this phenomenon.
    Now, the Colonel indicated that from at least a dredging 
perspective, the material that comes over the dam, the sediment 
that comes over the dam, mostly stays in the uppermost part of 
the Bay. So the sediment pollution, if you will, the additional 
burden, is an upper Bay issue. With respect to the dredging 
activities, the channel maintenance, it has to be dealt with. 
But with respect to water quality, it is not, under usual 
operations, a significant problem because the upper Bay is 
fairly turbid to begin with.
    Now, there are those situations where we have these floods, 
and you've seen these pictures of the satellite photographs 
showing the sediment plume going well down into the Bay, down 
to Virginia water. So is this a problem for the whole Bay?
    The issue, of course, is that, as was discussed, the real 
challenge is not just the sediment, but, particularly, the 
nitrogen and phosphorus, these two element nutrients which come 
over and stimulate excess algal growth, diminish the water 
quality, reduce the water clarity, deplete the oxygen in the 
Bay. So does that material get down that far, or is that 
picture we see from space really looking at the smoke from the 
muzzle of the gun rather than the bullet?
    Well, as it turns out, this requires a little understanding 
of the biology and chemistry of the Bay. And I want to 
introduce you to another friend of ours, another element, 
sulfur, which you have to understand to answer this question. 
Now, as opposed to nitrogen and phosphorus, which we're putting 
in--it comes from the land, it comes from the sky--sulfur comes 
from the ocean. It's part of the salt in sea water as we have 
the brackish Bay.
    So as the nitrogen and phosphorus comes over the dam, 
mainly in the form of particulate material, it's associated 
with that sediment that's being disrupted. The question is is 
that material released and it becomes available to the algae or 
not? Nitric phosphorus tends to bind very tightly to the 
sediment particles, and if it were not for a little bit of 
salinity that it could run into, it would probably do no harm. 
It would just be buried into the Bay.
    If it gets down far enough so that the next year or the 
next season, as brackish water gets mixed into the situation, 
sulfur plays a role, because it fuels the decomposition of 
organic matter by certain bacteria in the sediment, and that 
really causes a release of a lot of phosphorus from the 
sediment. So that's very important.
    The other issue we have to think about in the particulate 
nutrients is nitrogen. The models that the colonel referred to 
show that there was a down Bay, at least mid-Bay, reduction of 
water quality, because of when these periodic releases took 
place, manifest in lower oxygen levels in the deeper parts of 
the Bay, around Kent Island, you know, in that part of the Bay, 
and in the lower Chester and Eastern Bay, those areas, which 
would be slightly reduced in the oxygen levels. Below that, we 
think that we are on the pathway to attain.
    So that pattern suggests to our scientists that that's 
probably a nitrogen phenomenon, so there is an issue of whether 
that nitrogen associated with particles is also available. So 
we try to understand all of these complex phenomena and 
represent them. And, of course, these models that the Colonel 
talked about--and you'll hear more discussion of--they're 
really the state of the art. They're the best in the world.
    But as the famous statistician George Box said, models are 
not perfect. All models are ultimately wrong. Some are useful. 
The Bay Water Quality Model is a useful model, so it could 
provide guidance. But when we have a special set of 
circumstances, like we're talking about now, we need to better 
understand scientifically the processes going on so we can 
continue to improve our models and our use of them as we move 
forward.
    So we're hopeful that we in the scientific community get 
the opportunity to help resolve some of these questions. We 
think there will be better assurance of exactly what we're up 
against in terms of additional impacts and also what we need to 
do to mitigate the impacts by upstream source control. So 
thanks very much.
    [The prepared statement of Mr. Boesch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
              
    Senator Cardin. Well, thank you very much for that 
testimony. I feel like I'm getting a continuing legislative 
credit for your presentation.
    [Laughter.]
    Senator Cardin. Ms. Will, I want to once again thank you 
for your hospitality here and for making this possible.

   STATEMENT OF VICKY WILL, VICE PRESIDENT, ENVIRONMENT AND 
                   SAFETY, EXELON CORPORATION

    Ms. Will. Thank you, Senator, for holding this hearing and 
inviting Exelon to provide this subcommittee with an overview 
of the licensing process for Conowingo Dam and certain related 
issues.
    Exelon Generation is one of the Nation's largest 
competitive power generators with approximately 35,000 
megawatts of owned generation. Our fleet is one of the Nation's 
cleanest and low-cost generators of electricity. Included in 
that fleet is the Conowingo Hydroelectric Dam and the Muddy Run 
Pumped Storage Project, which is about 12 miles upstream of 
Conowingo. The Conowingo Dam is the furthest downstream of the 
five hydroelectric projects in the Lower Susquehanna River.
    To us, Conowingo is more than just a power plant. It is an 
economic engine for the region, providing vital clean energy 
while protecting the air and the Bay. As outlined in the 
written testimony of Exelon, in 2013, Conowingo provided about 
$33 million in capital and operational spending and $3.9 
million in Maryland property taxes.
    Conowingo and Muddy Run employ 62 full time employees and 
over 100 contracted workers annually. The projects inject $273 
million into the local economy and create 298 local jobs. And 
through their recreational facilities, they attract more than 
250,000 visitors to Cecil and Harford Counties annually.
    Environmentally, Conowingo is Maryland's largest source of 
renewable energy, producing more clean energy than all other 
sources in Maryland combined. Conowingo electricity displaces 
generation from fossil fuel fired sources and prevents 6.5 
million tons of greenhouse gases each year, which is the 
equivalent of taking 1.2 million cars off the road.
    Conowingo has provided fish passage since 1972 and operates 
two fish lifts used for research and to pass American shad, 
river herring, and other migratory fish during the migration 
season. We share U.S. Fish and Wildlife Service's interest in 
improving and enhancing fish passage at the dam.
    The current licenses for the Conowingo and Muddy Run expire 
in the third quarter of 2014, and Exelon formally initiated the 
FERC licensing process in 2009. Since then, we have conducted 
32 FERC approved studies relating to Conowingo and 15 related 
to Muddy Run. These license processes and associated studies 
have cost $34 million to date. Throughout this process, Exelon 
has engaged in extensive outreach to resource agencies and 
stakeholders, and we continue to work cooperatively to develop 
solutions and resolve differences.
    Earlier this year, Exelon reached a settlement with the 
Pennsylvania Department of Environmental Protection on the 
relicensing of Muddy Run. The settlement provides for trapping 
and trucking of American eel from below Conowingo Dam to 
locations above all five of the hydroelectric projects on the 
Lower Susquehanna River, funding of over $8 million for fish 
habitat restoration and sediment mitigation, and establishing 
an eel passage advisory group which will include 
representatives from the U.S. Fish and Wildlife Service and 
Maryland Departments of the Environment and Natural Resources.
    Exelon has also reached a settlement with the U.S. Fish and 
Wildlife Service to address fish passage concerns at Muddy Run, 
which we anticipate will be finalized this quarter. Exelon has 
been and remains an active participant in the Lower Susquehanna 
River Watershed Assessment.
    Exelon's written comments describe a number of significant 
licensing issues. In the interest of time today, I just want to 
talk about the sediment issue. The issue of Susquehanna 
sediment and its impact on aquatic wildlife and vegetation in 
the Chesapeake Bay has become a significant issue in the 
Conowingo licensing.
    Susquehanna sediment originates from upstream point and 
non-point sources, and the dam does trap some portion of the 
sediment and nutrients generated by these sources. It is 
estimated that Conowingo has trapped two-thirds of the sediment 
generated since Conowingo was constructed in 1928. The 
preliminary results from the Army Corps study indicate that the 
impacts of Conowingo scour on the Chesapeake Bay may have been 
overstated, the overwhelming impact of sediment on the 
Chesapeake Bay is from upstream sources, and that more study is 
needed to identify and understand better the nutrient loading 
aspect of storm scour, as well as feasible cost-effective 
solutions to address these impacts.
    As you've recognized by convening this hearing, the 
Susquehanna sediment issue is a complex problem, and 
identifying a practical and cost-effective solution is 
difficult. This is a basin-wide problem that demands that all 
of the Susquehanna River stakeholders work together, including 
Exelon, to reduce sediment from point and non-point sources and 
identify strategies to address.
    As a result, Exelon is working with the State of Maryland, 
U.S. EPA, the U.S. Geological Survey, the Army Corps of 
Engineers, and the University of Maryland on designing 
additional studies relating to the Susquehanna sediment and its 
impact on aquatic wildlife and vegetation in the Chesapeake 
Bay. These additional studies will build on the significant 
work already done by these agencies and are anticipated to take 
several years at a cost of approximately $2 million, which will 
be funded by Exelon.
    Exelon recognizes that the Susquehanna River and the 
Chesapeake Bay are treasured environmental resources that need 
to be protected and preserved, and we commit to continue to 
collaborate with agencies and other stakeholders to do this.
    Thank you.
    [The prepared statement of Ms. Will follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Senator Cardin. Thank you very much for your testimony.
    Mayor Gray.

   STATEMENT OF HON. RICHARD GRAY, MAYOR, CITY OF LANCASTER, 
                          PENNSYLVANIA

    Mayor Gray. Thank you, Senator. My name is Rick Gray. I've 
been the mayor of Lancaster now--I'm in my ninth year as mayor 
of Lancaster. We appreciate you inviting us here today on an 
expert panel--I'm not sure I'm an expert--but to tell you what 
we're doing in the city of Lancaster.
    First of all, we appreciate your efforts to improve public 
understanding of the environmental challenges presented by the 
Conowingo Dam. We look forward to working together to improve 
the ecological health of the Chesapeake Bay.
    This is not a new problem in Lancaster. In 1906, the city 
council debated whether or not to separate our stormwater and 
wastewater system and decided at that time that $2 million was 
too much to spend on it. Minutes from a 1927 Lancaster city 
council meeting noted that ``The meandering course of the 
Conestoga Creek formerly was a source of pride and largely used 
for recreational purposes. The continually increasing 
discharges of untreated sewage and industrial wastes have 
polluted this stream to a serious degree.''
    The minutes cite sludge deposits, oil slicks, and other 
pollutants that ``do not disappear'' before reaching the 
Susquehanna River and flowing into the Chesapeake Bay. That was 
in 1927. No one did anything.
    Nationwide, industrial pollution has been largely 
eliminated because of the Clean Water Act. That said, 
stormwater continues to be the main source of pollution of the 
majority of the 40,000 water bodies that are documented as 
impaired. Our stormwater engineering practices have not changed 
in four decades since the Clean Water Act went into effect. It 
is time to rethink how we approach stormwater management and to 
protect our most precious resource, clean water.
    Today, the city of Lancaster is responsible for between 750 
million and a billion gallons of polluted water flowing into 
the Conestoga River and eventually into the Chesapeake Bay. 
This is common in historic cities that rely on combined sewer 
systems to collect and transport both domestic sewage and 
rainwater flowing from downspouts, streets, sidewalks, parking 
lots, and over impervious surfaces into storm drains.
    There are 50 combined sewer communities in the Chesapeake 
Bay watershed alone. Eighty-five percent of the time, the 
city's treatment facility is able to manage and clean the 
volume of water flowing through this combined system. Still, 
during heavy rain storms and other wet weather events, the 
system becomes overwhelmed and, by design, untreated stormwater 
and sewage are allowed to overflow into the rivers.
    The problem of stormwater runoff and combined sewer 
overflow is not going away, nor will our responsibility to help 
clean and restore the Bay. To address these issues, we began 
with two important questions: One, can the city realistically 
eliminate 750 million to a billion gallons of stormwater runoff 
in 25 years using green infrastructure? Two, can this approach 
provide more benefits per dollar than traditional gray 
infrastructure alternatives?
    We've found that the answer to both questions is yes. 
Lancaster's experience shows that green infrastructure can be 
used to manage and reduce stormwater runoff in a way that is 
both cost effective and responsible. Simply stated, green 
infrastructure prevents stormwater from entering the sewer 
system using natural systems such as absorption or infiltration 
into the soil or into the atmosphere. This allows stormwater to 
be treated as intended.
    Over the past 3 years, the city of Lancaster has invested 
in green infrastructure projects to demonstrate the 
effectiveness of this technology. Lancaster currently, per 
capita, has more square feet of green roof than any other city 
in the United States--advantage of being a smaller city with 
that type of statistic. Still, we're there.
    Basically, green infrastructure lets the stormwater go 
where it would have gone prior to our paving the planet and 
preventing its absorption into the ground. Efforts are underway 
in our neighborhoods to engage the community, and the question 
is how do we pay for the green infrastructure. We've instituted 
a stormwater utility with a stormwater management fee. The fee 
is levied on property owners based on the amount of 
uncontrolled impervious area on their property.
    In closing, we can have clean water if we want it, not 
because of Federal mandates but because we have an ethical and 
moral obligation to do right by our children and grandchildren. 
I would say this, Senator. Maryland is extremely important to 
us from this perspective, those of us who want to do something 
about it in Pennsylvania. If the people in Maryland don't 
indicate an urgency with the Chesapeake Bay, the people in 
Lancaster are not going to care at all about it. They really 
aren't.
    So what happens in Maryland directly affects our political 
ability to do these things in Pennsylvania, and we look to 
Maryland for leadership and really being out in front on these 
types of issues. So, again, technology has given us the power 
to preserve our water resources and at the same time create a 
more livable, sustainable, and economically viable future for 
generations to come.
    [The prepared statement of Mayor Gray follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
              
    Senator Cardin. Mayor Gray, I particularly appreciate your 
testimony and your leadership on this issue. You're absolutely 
right. Maryland is going to do what's right, and what you're 
doing in Lancaster is really commendable. So I'm glad I take my 
grandchildren there frequently to see Lancaster.
    Mayor Gray. I'll be sure to come downtown when you do so.
    [Laughter.]
    Senator Cardin. Secretary Gill.

 STATEMENT OF HON. JOE GILL, SECRETARY, MARYLAND DEPARTMENT OF 
                       NATURAL RESOURCES

    Mr. Gill. Thank you, Senator. I'm Joe Gill, Secretary of 
Natural Resources for the State of Maryland. I'm here with my 
colleague, Dr. Bob Summers, who is Secretary of the Maryland 
Department of the Environment. You can guess which one of us 
drew the short straw.
    [Laughter.]
    Mr. Gill. I'd like to provide a context and a framework and 
one closing remark on next steps. Here's the context. I heard 
earlier that even during large storm events like Tropical Storm 
Lee, which occurred September 2011, even then, only 20 percent 
of the sediment that comes into the Bay comes from behind the 
dam, even during those large storm events. The rest of the 
sediment that comes into the Bay comes from the surrounding 
watershed.
    The land area that drains into the Chesapeake Bay, as we 
all know, is 64,000 square miles. Therefore, it is critically 
important that all of the jurisdictions and all of the counties 
move forward with their watershed implementation plans to 
address the very issue of upland sediment loading that 
contributes the majority of the sediment to the Bay.
    In my written testimony, I submitted a picture, which I 
think might illustrate the point. There's a famous photo of the 
sediment plumes that occurred just after Tropical Storm Lee in 
the middle of the Susquehanna. This is a picture of sediment 
plumes occurring from the bottom up on the James River, on the 
Rappahannock, and on the Potomac. There are no dams on any of 
those rivers.
    This was not a major storm event. This was sometime in 
February 2013, after an ordinary storm event that occurred in 
the watershed. I think this picture shows that sediment loading 
is going to occur throughout the year, throughout the 
watershed, and that all of us must take steps to address that 
and not simply what's behind the dam.
    You mentioned before about the opportunity that we have 
with respect to the relicensing process. It's a great 
opportunity--not only issues involving migratory fish passage, 
recreation lands, minimum flow of waters, but also, of course, 
sediment and nutrient loading.
    One of the tools that the Clean Water Act provided Maryland 
with, along with other States, is something known as a clean 
water certification. Prior to receiving a license to continue 
to operate the dam for the next 46 years, the dam operator has 
to certify that continued operation will not impair Maryland's 
water quality.
    The need for that certification is what has called into 
play the additional studies that have been done to actually 
quantify the nutrient loading that is occurring that must be 
addressed for continued operation of this dam not to impair 
water quality. So we do have a very good opportunity here with 
the relicensing process that is now ongoing.
    Second, Exelon is correct. We are moving forward with some 
additional work to quantify the nutrient impacts, working with 
the Corps of Engineers and our other Federal and State 
partners. We are confident that that work will build upon what 
has been done in the Lower Susquehanna River Watershed 
Assessment Study, and that we will get to a place where we 
address these impacts while at the same time continue to 
implement our watershed plans to get the Bay back to the 
healthy position that we hope it will be 1 day soon.
    Thank you.
    [The prepared statement of Mr. Gill follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Senator Cardin. Well, thank you all for your testimony.
    Secretary Gill, I want to start with the point that you 
made about the fact that most of the pollutants, whether it be 
sediment or whether it be the nutrients, are coming into the 
Bay not from behind the dam. They're just coming into the Bay 
as a part of our way of life.
    Mr. Gill. Yes.
    Senator Cardin. And the weather conditions that we are now 
confronting, more extreme weather conditions. So the question 
is: How do we deal with nutrient planning and programs? How do 
we deal with our watershed improvement plans? How do we deal 
with the implementation of the Bay program under TMDLs? How is 
that fairly shared? And what impact do the Susquehanna and the 
dam have in regards to that overall strategy?
    I think that's the real challenge that we have in dealing 
with this, so that all stakeholders are treated fairly. I think 
that was the point that you were stressing in your testimony.
    Mr. Gill. Yes. I think it's actually interesting, when you 
look at the watershed plans, at least for Maryland, that 
basically assess across sectors, across agricultural, septics, 
stormwater, point source pollution. We basically assess 
responsibility for pollutant loading and responsibility for 
putting in place plans to reduce that loading. That is true of 
Maryland, and it is true of other jurisdictions as well.
    The real question is: What is the impact of the dam on all 
of this? The TMDL, the Total Maximum Daily Load, when EPA 
issued it several years ago, assumed that the dam would reach 
capacity in the year 2025. We know now that, basically, that 
has changed, that this notion of dynamic equilibrium has set 
in.
    So what do we do? Well, I think what we do is we adaptively 
manage by understanding what the impact of more frequent 
scouring is and by seeking to assess responsibility for that 
impact on the dam operator, where that's the case, and upstream 
where it's not the case. So I think that's the process we're in 
right now.
    Senator Cardin. Will that require us, as we revisit the Bay 
agreement, to understand that the assumption on the capacity of 
the dam is different today than it was before?
    Mr. Gill. One of the elegant points of the way the whole 
TMDLs were put into place, however inelegant it may have seemed 
at the time, was that there is a midpoint assessment that will 
be done by EPA in 2017. And along with that midpoint assessment 
is ongoing assessment of how effective our water quality 
management tools are. So what I would suggest, Senator, is that 
this process of assessing and evaluating and making changes is 
already in place in terms of our managing our resources going 
forward.
    Senator Cardin. So that'll be part of that process in 
revising, perhaps, even the TMDLs.
    Mr. Gill. Yes, it will, Senator.
    Senator Cardin. Thank you. I appreciate that.
    Mayor Gray, your testimony is very compelling about the 
fact that if we can reduce the amount of pollutants going in 
upstream, the problems at the dam are going to be more 
manageable.
    Mayor Gray. Absolutely.
    Senator Cardin. And it's a lot more cost effective to do it 
at the local level than it is to try to figure out what happens 
now that we have all this trapped sediment.
    Mayor Gray. Yes. On the other hand, Senator, it's a cost 
that financially strapped cities and communities in 
Pennsylvania have a difficult time realizing. For example, in 
Lancaster County--and we're considered one of the biggest 
polluters of the Bay, the county--the farmers will tend to 
point at the city and say the city is the problem. We've 
resisted doing the same. Rather than that, we say, ``You have a 
problem. We have a problem. You deal with yours. We'll deal 
with ours.'' So rather than point fingers at people, let's just 
take care of it and get it done.
    But other communities in Pennsylvania have looked at our 
green infrastructure plan, which is about 250 pages long. And 
it was developed with the idea in mind that smaller 
communities--not Pittsburgh and Philly, but the rest of our 
cities--could look at it and use it, not even just in the 
Chesapeake Bay watershed, but in the entire State.
    We're promoting that through the League of Municipalities 
in Pennsylvania. They've recently started a sustainability 
program that includes looking at green infrastructure and 
looking at stormwater disposal. So it's happening upstream, but 
it's a difficult battle.
    One final thing. We don't talk about the Chesapeake Bay, 
generally, when we go out and talk to neighborhoods. If we 
green a park--at one park we have, almost 4 million gallons a 
year was put into stormwater--or with stormwater disposal 
underneath some basketball courts with a drain field. What we 
do is put a big sign up for the new park, ``Green 
Infrastructure at Work,'' so that people equate green 
infrastructure with a new park or a new intersection.
    We use what's called integrated infrastructure. Any public 
improvement we do, we look at it from a green perspective. How 
can we incorporate greening into this? And again, even an 
intersection change--how can we make it green? So it's been 
successful, and people see improvements in the community. They 
might not care about the Chesapeake Bay. They care about the 
park down the street. So it's been working for us so far.
    Senator Cardin. You're absolutely right. People identify 
with their own community, and the way that you've done that is 
very successful.
    I should point out that when Colonel Jordan was talking 
about up to $3 billion for the dredge project, I was thinking 
of how we could use that money in the State revolving fund to 
help in regards to dealing with wastewater treatment or how we 
could perhaps put more money into the new regional conservation 
programs under the Farm Act that help the Bay farmers in 
dealing with their nutrient control issues. Putting money into 
those programs will help us a great deal in reducing the 
ingredients that are going into our fresh water that's causing 
the problems on the Susquehanna as far as the dam is concerned.
    Dr. Boesch, I want to talk a little bit more about--I 
really do appreciate your explanation. As I understand it, we 
really don't have good hard evidence on the nutrient issues 
coming in from the Susquehanna, particularly during scour 
events, as to the impact it has on the overall health of the 
Bay. At least, that was not the focus of the study that was 
done by the Army Corps.
    As I understand it, there are two factors here that seem to 
be coming into play. When you get a rush of fresh water, that 
sort of mitigates the negative impact of the nutrients. It 
doesn't quite have the same negative impact because there's not 
as much brash. Is that accurate, or am I saying that wrong?
    Mr. Boesch. No. I think when you do have one of these 
floods, it introduces nutrients and it introduces sediments and 
fresh water into the Bay. That changes a lot of things. It 
moves the salinity down so that sulfur is pushed away that can 
release the nutrients, and it also is turbid so that the plant 
life that would photosynthesize and create the organic matter 
which degrades water quality is inactive.
    So that's why in the analysis that EPA and the Corps did in 
terms of a winter flood--remember, that was one of the 
scenarios the Colonel put--it has much less of an impact than 
if it were a spring or summer flood, when conditions were 
right, just in terms of the temperature and the metabolic rate 
of organisms and so on.
    However, this doesn't mean there isn't--and this is where 
the important questions and unknowns come in. There is a 
residual effect. So if this material comes down, and if it's 
nutrients associated with sediments and falls down and is 
deposited on the Bay, does it stay there? Or when it gets warm 
next year and it gets salty again, the salinity moves back up 
the Bay, is it released? So these are the questions that have 
to be addressed that aren't yet adequately addressed in the 
level of detail necessary in the Bay model.
    I was just reflecting on your questions and the discussion 
thus far. The Susquehanna River is responsible for about 47 
percent, on the average, of the fresh water coming into the Bay 
and about 41 percent--slightly less but almost the same--in 
terms of the nitrogen. Nitrogen is more soluble. It goes where 
the water goes. But it's only responsible for 27 percent of the 
sediment, total sediment, coming into the Bay and, therefore, 
only 25 percent of the phosphorus.
    So we have to look at these other sources. Secretary Gill 
showed you how the James and the Potomac can contribute 
particulate matter, the sediment. The other sources, of course, 
are local sources from erosion of soils that we don't protect 
properly or urban runoff from Baltimore. If it runs down some 
of these streams, it just erodes the sediment from the stream 
bed, degrades the stream--and also shore line erosion as we 
have sea level rise. That's causing more sediment to come into 
the Bay from eroding shore lines.
    So the challenge is that we can't just look at one source. 
We have to look at all of these sources. So a place like the 
Choptank or the Patuxent is not going to attain its water 
quality from managing the Susquehanna. It requires work in the 
watershed improvement plans around those tributaries. So all of 
those tributaries need to work to achieve their goals. Surely, 
they're influenced by the open Bay itself, but the primary 
outcomes, not only oxygen but also water clarity, submerged 
vegetation, harmful algal blooms is going to be determined by 
the actions taken on the subwatersheds around the tributaries.
    Senator Cardin. Well, I think you're right. I think the 
watershed improvement plans are going to be critical in the 
TMDLs as to how we manage the most effective, most efficient, 
most cost-effective plans based upon best science to achieve 
our objectives.
    I started the hearing by saying we're very much interested 
in expanding, not only maintaining, but expanding clean energy 
sources. That's good for our energy. It's good for our 
environment. But we also need to have the most cost effective 
and efficient way to deal with the Bay, and there's so many 
stakeholders that deal with it.
    Let me just relate that on Friday, I was in Frostburg. I 
mention that because there's two things they're doing there. 
First, they're building some new buildings for the university, 
for the college, and they're doing it in a way that will do 
exactly what Mayor Gray was talking about, with the living 
roofs and trapping water and dealing with our runoff as, 
particularly, a public partner should do when they do their 
construction.
    I will be urging as we reauthorize the Surface 
Transportation to have more sensitivity to our transportation 
construction as it relates to the runoff issues that we're 
talking about.
    But second, they have a sustainable agricultural project 
that takes a former strip mine site and is converting it into 
agriculture, which is very interesting. They have no water, 
they have no power, and they have no soil, and they're turning 
it into agriculture.
    The way they're doing it is they're trapping the water, 
using the water. Rather than having it run off and having to 
have supply water, they're using nature, using that water in a 
more constructive manner. They're using solar power for the 
power that they need, and they're composting the soil from 
waste.
    Mr. Boesch. Senator, about the ability of natural systems 
to help us, you know, we tend to be focused on problems. And so 
that we not be discouraged, I'd be remiss if I didn't point out 
that just downstream here, not far, where the Susquehanna flows 
into the Bay, is a remarkable success story, and this is the 
resurgence of submerged aquatic vegetation on the flats at the 
mouth of the Susquehanna.
    In 1972, the storm of record, Tropical Storm Agnes, 
basically destroyed them--it was such a large event--both the 
fresh water as well as the sedimentation. It was almost 30 
years when there was no vegetation there, very little 
vegetation.
    Now, in the last several years, it's come back remarkably 
well, and it's withstood the kinds of stresses that took place, 
like, for example, Tropical Storm Lee. It managed to survive 
and keep on ticking, because it's now built enough inherent 
resilience because of the density of those plants that it can 
still the water, you know, keep the light--cause the sediment 
to fall out and keep light intensity.
    So we should be thinking of recovering the Bay, not like 
you were titrating it, you know, in a chemistry experiment, but 
rebuilding the natural system that has the capacity to 
basically take a licking and keep on ticking, if you will, and 
to have that inherent resilience back into the system. That's 
what we're trying to achieve, and I think as scientists, we 
have confidence that if we can achieve the water quality over 
the years, this resilience will improve and return.
    Senator Cardin. Yes, I agree.
    Ms. Will, you talked pretty freely about the FERC process 
and how Exelon has assumed responsibilities to do certain 
improvements, particularly to fish passageways during the FERC 
reauthorization process or recertification process. It's 
interesting that when the dam was originally built, there was 
very little done for fish passage. Over time, that's been 
changed and modified. Obviously, we want this based upon best 
science and cost-benefit analysis.
    Can you just tell us how you look at the recertification 
process and the Clean Water Act as to the areas that Exelon 
would be interested in working with the community, working with 
us, in order to take advantage of this recertification to make 
our community stronger?
    Ms. Will. Certainly. There are numerous issues. We 
initiated the process, actually, in 2007. We started preparing 
for our filing in 2009, to notice our intent to relicense 
Conowingo and Muddy Run. And we identified stakeholders and had 
a number of stakeholder meetings.
    First of all, we know what the water quality issues are and 
fish passage and such, and we designed studies with stakeholder 
input that we conducted over a 3-year period to understand the 
current impact and what the opportunities are for improvement. 
But then during the course of discussions with stakeholders, 
other areas of interest have come up, such as land conservation 
and such.
    So it is our desire to come up with a comprehensive 
settlement that factors in all the information our studies have 
provided to us, as well as new information we get as additional 
studies are completed, to help enhance the environmental and 
recreational benefits provided by the dam.
    Senator Cardin. I think it's absolutely key that we have 
the best science judge what we can do. The cost issues are 
clearly going to be a dominant issue. We understand that as one 
of the realities of limited budgets, generally, for everyone. 
But the best we can do on science would be helpful.
    As I listened to Dr. Boesch, it points out the advantage of 
the Corps study but also that additional information is needed, 
that we don't have all the technical information necessary. And 
we know the Bay is complex. We know that. We know that it's a 
national treasure, but it's complicated to figure out how we 
provide the best protection for the Bay for future generations. 
We know some of the things that work, but there's still a lot 
of mysteries out there.
    So I just would encourage you and thank you for supporting 
as much of the science information as we can get so that we can 
make the right decisions. We like to focus on it every year. We 
do have a Bay program. We do have watershed implementation 
plans. But this recertification gives us another tool in our 
toolbox to try to advance this process forward.
    Ms. Will. We agree, and we are committed to funding the 
study that you heard Secretary Gill and the University of 
Maryland discuss to inform the 2017 EPA midpoint assessment for 
the TMDL.
    Senator Cardin. Secretary Gill, on the recertification 
process, how do you see the State of Maryland in regards to the 
Clean Water Act with the recertification of this plant moving 
forward?
    Mr. Gill. Well, Exelon filed its water quality 
certification application at the end of January, this past 
January. The State has a year from now to decide whether or not 
what's been filed is complete or incomplete or what-not. We're 
in the process of reviewing all of that in discussions. So 
that's the process.
    Senator Cardin. Well, I would appreciate it if you would 
keep us informed on that. We're very interested, and we have an 
excellent relationship with the State and with Exelon on this 
issue.
    Mr. Gill. Certainly.
    Senator Cardin. Dr. Boesch, what other types of studies 
would you like to see in regards to the----
    Mr. Boesch. Never ask a scientist that.
    [Laughter.]
    Senator Cardin. No, I understand. I'm trying to help you.
    Mr. Boesch. I think we've tried to think through the issues 
and think through where the question marks are, and we've done 
this in a way with partnering with the State agencies and with 
EPA who have the responsibility of converting complex science, 
as you said, to management decision tools. But there are some 
things that we can point to and say, ``Well, you know, that 
would make a big difference if we knew that better.'' So that's 
what we're trying to focus on.
    I spoke mainly about the downstream impacts and 
understanding them better. But if you think about it, and you 
pivot, this is really an upstream problem. So there are all 
sorts of questions here about our most effective land 
management practices.
    The other thing I think we should point to--and Secretary 
Gill made the point of having--this is just one more speed 
bump, if you will, in the road, and we're going to have many 
more. Even if we're successful and by 2025 achieve the 
reductions of nutrient inputs, pollutant inputs, that we want, 
there'll be some surprises. You alluded to one in your 
questioning, that is, climate change.
    You know, we don't know fully what it is. We know the Bay 
is going to be warmer, and it's going to have more volume 
because sea level is going to rise. But we don't know that much 
about the changing in the rainfall regime, the precipitation, 
and the net result in terms of downstream flow. So I think as 
we look down the horizon in managing the water resources that 
we have, but also the pollutant loads we have, that's, I think, 
a critical question that we should be addressing as well.
    Senator Cardin. It's an interesting point. I hadn't focused 
on that when the original projections were--as to how long the 
reservoir would be able to sustain the sediments. It was for a 
lot longer period of time than it was able to do. So those 
projections clearly were not accurate, didn't prove to be 
accurate in reality. As we are seeing more extreme weather 
events, they may not hit the flow levels that the Colonel was 
talking about, but we are seeing a lot of extreme conditions.
    Mr. Gill. And that's actually part of what we found that 
has led to the conclusion of dynamic equilibrium, that the dam 
is scouring at lower level storm events. Formerly, the thought 
was that the dam would scour when the rate of velocity of water 
reached 400,000 cubic feet per second. We now know that the dam 
scours at much lower rates of 100,000 to 200,000 cubic feet per 
second.
    So we're in the process of measuring what the impacts are 
from those lower level, more frequent scouring events to 
understand the impact downstream. That's the nature of the 
change.
    Senator Cardin. So here's the challenge on the 
recertification process. We get this chance every 40-something 
years. Is it----
    Mr. Gill. Forty-six.
    Ms. Will. I can explain the rationale for that, actually, 
and that is because there's five hydroelectric projects on the 
Lower Susquehanna River. Three of them are up for relicensing 
now. The two between--the ones just above Conowingo are not up 
until 2030. But if you really want to address the sediment and 
fish and eel passage in the river holistically, it would be 
very helpful to have all five dams working in concert. So their 
relicensing--a 46-year license for us, plus a 30-year license 
for them would put us all on the same schedule.
    Senator Cardin. Right. That was explained to me once 
before, and I appreciate you explaining it for the record, 
because I had lost that concept. And Exelon has proven to be a 
very sensitive partner in our community, as far as community 
needs. I say that as a compliment to the commitments that they 
made in regards to the merger, and carrying out those 
commitments have been of the highest caliber, and we thank 
them. We know that they want to do what's right for the 
community.
    But I also point out that when you only have a 
certification process every 30 years, and this is an 
opportunity to do something in regards to clean water, we want 
to make sure it is visionary and it takes into consideration 
what we know are challenges, and that we now have an 
opportunity to deal with it, so let's take advantage of it and 
get it done right. So the fish passages--absolutely. This is a 
chance for us to upgrade and to take care of those shad that 
are particularly important to Maryland's history.
    So, once again, let me thank you all. The record will be 
open for questions for the record if there's any to be asked. 
And if we do, if you would respond, we would appreciate it.
    And once more, I want to thank the Environment and Public 
Works Committee for allowing us to bring the hearing here in 
Maryland so that we could make it convenient for the people 
that are here to talk about an issue, where, as Mayor Gray 
said, the more information people know about, the more they 
understand what they're doing, and the more they understand how 
it affects their lives, the better the policy will be. And I 
think this hearing has helped us achieve those objectives.
    With that, the subcommittee will stand adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
